CERTIFICATE OF WORD COUNT
NO. 19-319
Cruikshank-Wallace et vir.,
Petitioner(s),
v.
CNA Financial Corporation, et al.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the CNA FINANCIAL
CORPORATION, ET AL. BRIEF IN OPPOSITION contains 1034 words, including the parts of the brief that
are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
October 9, 2019

SCP Tracking: Hartman-151 N. Franklin Ave,-Cover Orange

